No. 20-1013
In the Supreme Court of the United States
CLARENCE J. SIMON, JR.,
Petitioner
VERSUS
DIRECTOR, OFFICE OF WORKERS’ COMPENSATION
PROGRAMS, UNITED STATES DEPARTMENT OF
LABOR, LONGNECKER PROPERTIES, INC., AND
SEABRIGHT INSURANCE COMPANY,
Respondents
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
REPLY BRIEF IN SUPPORT OF PETITION
FOR A WRIT OF CERTIORARI
Louis R. Koerner, Jr.
KOERNER LAW FIRM
1204 Jackson Avenue
New Orleans, Louisiana 70130-5120
(504) 581-6569 (O) – (504) 405-1411 (C)
A Member of the Louisiana Bar
Counsel for Petitioner Clarence J. Simon, Jr.

i
QUESTIONS PRESENTED
Question I. Did the Fifth Circuit correctly
uphold the Benefit Review Board’s determination that
collateral estoppel barred Petitioner from relitigating
the existence of a third-party settlement agreement?
Question II: Does the Fifth Circuit’s decision
conflict with any decision of this Court or of any other
Court of Appeals?
Question III: Did the Employer/Carrier meet its
burden of proof showing that an executed settlement
existed within the meaning of 33 U.S.C. 933(g)?

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
TABLE OF CONTENTS ............................................. ii
TABLE OF AUTHORITIES ...................................... iii
SUMMARY OF THE ARGUMENTS FOR
GRANTING CERTIORARI......................................... 1
RESPONSE TO RESPONDENTS’ ARGUMENTS .. 2
I. Collateral Estoppel .................................................. 2
II. Existence of a Settlement .................................... 11
CONCLUSION........................................................... 16
APPENDIX D. ADMINISTRATIVE LAW JUDGE
ORDER DENYING EMPLOYER/CARRIER’S
MOTION TO DISMISS ............................................ D1

iii
TABLE OF AUTHORITIES
CASES

PAGE

Casey v. Georgetown University Medical Center,
31 BRBS 147 (1997)

14

Estate of Cowart v. Nicklos Drilling Co., 505 U.S.
469 (1992).

9

Hale v. BAE Sys. S.F. Ship Repair, Inc., 801 Fed.
Appx. 600 (9th Cir. 2020)

12

Kelly v. Red Fox Companies of New Iberia Inc., 123
F. App'x 595 (5th Cir. 2005)

7

Mallott & Peterson v. Director, 98 F.3d 1170 (9th
Cir. 1996), cert. denied, 520 U.S. 1239 (1997),
overruled on other grounds by Price v. Stevedoring
Servs. of Am., Inc., 697 F.3d 820 (9th Cir. 2012)

12

O'Neil v. Bunge Corp., 365 F.3d 820 (9th Cir. 2004)

5

Oceanic Butler, Inc. v. Nordahl, 842 F.2d 773 (5th
Cir.1988)

6

Simon v. Longnecker Props., No. 12-cv-1178, 2015
WL 9482899 (W.D. La. Dec. 28, 2015), aff ’d in
part and dismissed in part, 671 Fed. Appx. 277
(5th Cir. 2016).

12

Simon v. Longnecker Props., 671 Fed. Appx. 277
(5th Cir. 2016)

12

STATUTES AND CODES
Longshore and Harbor Workers’ Compensation
Act, 33 U.S.C. 908(i)

5

iv
Longshore and Harbor Workers’ Compensation
Act, 33 U.S.C. 933(g)

passim

OTHER
Restatement (Second) of Judgments (1982)

4, 11

1
SUMMARY OF THE ARGUMENTS FOR
GRANTING CERTIORARI
In all points raised in their Oppositions,
Federal Respondents, Longnecker Properties, Inc.
and Seabright Insurance Company [hereinafter
“Respondents”] misstate facts, quote without analysis
the factually and legally erroneous judgments of the
ALJ, BRB and Fifth Circuit, and rely on procedural
misapplications and empty technicalities in order to
support denial of certiorari.

2
RESPONSE TO RESPONDENTS’ ARGUMENTS
Respondents make the following contentions:
I. Collateral Estoppel
Respondents’ arguments merely quote the
erroneous decisions below in support of application of
collateral estoppel to factual circumstances that
disregarded

the

requirements

of

933(g)

and

improperly construed the facts, particularly those
found by the ALJ showing an absence of settlement
between Petitioner and third-party, Tri-Drill. It is
undisputed that Simon’s counsel was not authorized
to enter into any agreement. Settlement also had to
be approved by the employer prior to consummation.
It was not approved The settlement was not
authorized, much less signed by Clarence Simon.
These arguments are addressed in the Petition.
Respondents, however, continue to urge the
correctness of erroneous judgments of the BRB and
Fifth Circuit and even of the ALJ inappropriately
applying collateral estoppel. They ignore the factual
findings of the ALJ in its order denying the

3
Employer/Carrier’s motion to dismiss.1 These factual
findings are totally inconsistent with these erroneous
lower court decisions. The ALJ stated:
Section 33(g) is an affirmative
defense that must be raised and pleaded
by an employer who bears the burden of
showing that the claimant entered into
a: 1) fully-executed settlement; 2) with a
third person; 3) without obtaining prior
written approval from his employer and
its
carrier.
Newton-Sealey
v.
ArmorGroup Services (Jersey), Ltd., 49
BRBS 17 (2015). Thus, the employer
must first show that a fully-executed
settlement exists.2
The ALJ then found that no valid settlement
existed between Petitioner and Tri-Drill, stating:
In
determining
whether
settlements have been fully executed,
the Board held, in Williams v. Ingalls
Shipbuilding, Inc., 35 BRBS 92 (2001),
that the ALJ must consider, on a case-bycase basis, numerous factors, including,
inter alia, whether the claimant agreed
to a settlement; whether he signed a
release; whether the claimant’s counsel
had the authority to settle a claim on his
behalf; whether any third-party suits
had been dismissed; and/or whether any
settlement had been rescinded, thereby
1 Appendix D.
2 Appendix D, p. D6.

4
returning the parties to the status quo
ante.3
Thus, the ALJ, finding that “legitimate issues
of fact remain as to whether a fully-executed
settlement exists so as to meet Employer’s first
requirement for obtaining a bar to compensation and
medical benefits under Section 33(g),” 4 accurately
detailed the prerequisites for a settlement under
33(g), the burden of proof, application of Louisiana
law and 33(g) law.
Without analysis, the Federal Respondents
simply cite the Restatement (Second) of Judgments §
27, at 250 (1982) stating that under the doctrine of
collateral estoppel, “the general rule is that when [1]
an issue of fact or law is [2] actually litigated and [3]
determined by a valid and final judgment, and [4] the
determination is essential to the judgment, the
determination is conclusive in a subsequent action
between the parties […].” Both Respondents ignore
the fact that the issue before the district court
required a different and much lower legal standard of
proof or persuasion than under 933(g) before the ALJ

3 Appendix D, p. D7.
4 Appendix D. p. D10.

5
or presumably the Board. The first and second
elements were not met since, despite having similar
issues of fact and law, the ALJ was not expected to
appreciate the facts in the same manner as the
district court did under tort/maritime law. The proper
standard of consideration of the stringent LHWCA
§933(g) requirements resulted in a denial of the

motion to dismiss by the ALJ and should have
resulted in an altogether different finding and
decision. Respondents, understanding the force of this
argument, contend that “more stringent LHWCA
requirements under 933(g) [are] not an issue in
this case.” This, as done below, (mis)applies
collateral estoppel by contending erroneously that
all elements of the doctrine are met. Respondents
attempt to distinguish O'Neil v. Bunge Corp., 365 F.3d
820 (9th Cir. 2004) because it involved a settlement
under Section 908(i) instead of Section 933(g).
However, the form requirements under both sections
present the same legal issue: collateral estoppel is not
proper

where

different

and

more

stringent

requirements are involved than under tort or
maritime law. Courts must defer to the BRB's
interpretation

of

the

statute

where

such

6
interpretation is reasonable and reflects the policy
underlying the statute. Id. at 822. The Ninth Circuit
stated that the “main purpose ‘clearly is protection of
the claimants', and the public's, interest in preserving
them and their families from destitution and
consequent reliance on the taxpaying public.’” Id. at
823 (quoting Oceanic Butler, Inc. v. Nordahl, 842 F.2d
773, 781 (5th Cir.1988)).
The language of 933(g) is and should have been
paramount to the decisions below:
(g) Compromise obtained by
person entitled to compensation
(1) If the person entitled to
compensation
(or
the
person’s
representative) enters into a settlement
with a third person referred to in
subsection (a) for an amount less than
the compensation to which the person (or
the person’s representative) would be
entitled under this chapter, the employer
shall be liable for compensation as
determined under subsection (f) only if
written approval of the settlement is
obtained from the employer and the
employer’s
carrier,
before
the
settlement is executed, (emphasis
added) and by the person entitled to
compensation
(or
the
person’s
representative). The approval shall be
made on a form provided by the

7
Secretary and shall be filed in the office
of the deputy commissioner within thirty
days after the settlement is entered into.
(2) If no written approval of the
settlement is obtained and filed as
required by paragraph (1), or if the
employee fails to notify the employer of
any settlement obtained from or
judgment rendered against a third
person, all rights to compensation and
medical benefits under this chapter shall
be terminated, regardless of whether the
employer or the employer’s insurer has
made payments or acknowledged
entitlement to benefits under this
chapter.
In Kelly v. Red Fox Companies of New Iberia
Inc., 123 F. App'x 595, 597 (5th Cir. 2005), referencing
a Fourth Circuit decision, the Fifth Circuit found that:
In I.T.O. Corp. of Baltimore v.
Sellman, the Fourth Circuit refused to
impose a complete bar on future
compensation in the absence of a written
approval, finding that an employer's
failure to provide written approval of a
third party settlement agreement did not
serve to terminate the employer's
obligation to provide compensation
under the LHWCA when the employer
directly and fully participated in both the
third party action and the settlement
negotiations leading to the execution of

8
what amounted to a “joint” settlement
agreement.
Here, the facts show that Simon counsel and
counsel

for

third-party

Tri-Drill

commenced

negotiations toward a possible settlement. This
settlement was tentatively agreed to — subject to
Petitioner’s consent which was never given. At the
mediation and on the very day that Mr. Simon would
have

been

presented

with

the

offer,

the

Employer/Carrier, who was already aware of the
settlement negotiations and would have been a
necessary party to the settlement, announced its lack
of consent. Mr. Simon was never presented with the
offer and did not give consent. The Employer/Carrier
then immediately but prematurely sought to enforce
negotiations by a motion directed to the ALJ claiming
the unconsummated agreement to be a valid
settlement under 933(g). This motion was denied by
the ALJ because there had been no actual settlement,
no release, and no compensation to Simon. These facts
have never varied. The burden, not there met, was on
the employer.
No actual settlement had occurred when the
Employer/Carrier, thwarted by the ALJ, filed its

9
motion in the district court. As stated above by both
the Fifth Circuit and the Fourth Circuit, the
employer/carrier’s

complete

participation

in

a

settlement between claimant/worker and a thirdparty can “serve to obviate the need for written
approval of the agreement under § 933(g)(1).” Id. Once
again, the facts unequivocally show that Petitioner
Simon did not agree to the settlement, did not sign a
release, that his counsel disclosed the proposed
settlement, that the Employer/Carrier did not
consent, that settlement was not consummated or
fully

“executed”

under 933(g), and

that

the

Employer/Carrier sought its own enforcement of that
uncompleted

and

rejected

settlement

despite

opposition by both Tri-Drill and Simon.
This Court, in Estate of Cowart v. Nicklos
Drilling Co., 505 U.S. 469, 483 (1992), did not have
before

it

or

consider

whether

an

employer’s

participation in a third-party settlement brought the
case procedurally outside the realm of 933(g) nor what
happened when no money passed hands and no
releases were signed by the employee, here Simon.
The question remains open.

10
Even though Cowart, the employee, did receive
a settlement and did execute a release, there was a
powerful dissent:
The Court recognizes “the stark
and troubling possibility that significant
numbers of injured workers or their
families may be stripped of their
LHWCA benefits by this statute.” Ibid. It
attempts to justify the “harsh effects” of
its decision on the ground that it is but
the faithful agent of the Legislature, and
“Congress has spoken with great clarity
to the precise question raised by this
case.” Ibid. In my view, Congress did not
answer the question in the way the Court
suggests, let alone did it do so “with great
clarity.” The responsibility for today's
unfortunate decision rests not with
Congress, but with this very Court.” Id.
at 503.
Here, Clarence Simon was not then receiving
and had never received any benefits from the
Employer/Carrier either voluntarily

or

through

judgment. The Employer/Carrier not only had notice
of the tentative settlement between Petitioner and
Tri-Drill, but also sought to enforce and succeeded in
enforcing the settlement in the district court after
being rebuffed by the ALJ. Clear guidance from this
Court is therefore appropriate as to whether such

11
situations effectively place injured workers outside of
the forfeiture of 933(g).
The decision below is inconsistent with other
circuit decisions involving settlements by injured
employees. The settlement issue was not “actually
litigated”

for

purposes

of

collateral

estoppel.

Restatement (Second) of Judgments § 27 cmt. d, at
255. Under the more particularized and stringent
requirements of 933(g), the facts are to be presented,
construed, and appreciated differently than in a
tort/maritime action. The district court’s finding that
a settlement was concluded between Petitioner and
Tri-Drill was based on factors that were construed
differently by the ALJ — until collateral estoppel was
urged based on the district court’s decision and the
Fifth Circuit’s affirmance without opinion. Whether
the district court’s judgment is final or valid is
inconsequential to Petitioner’s Longshore claim. His
claim to this Court is solely based on the language of
933(g). Its requirements were admittedly unmet.
II. Existence of a Settlement
Absent approval from the ALJ of a completed
settlement application, there is no enforceable
settlement. As there was no settlement application

12
made to the ALJ and no consummated settlement, no
payment of funds and no release, the strict terms of
33 U.S.C. 933(g) were not met, and Simon is entitled
to compensation. Misstating the facts, as done by
Respondents, does not change them.
Respondents make a half-hearted attempt to
distinguish Hale v. BAE Systems San Francisco Ship
Repair, Inc., 801 Fed. Appx. 600 (9th Cir. 2020) and
Mallott & Peterson v. Director, 98 F.3d 1170, 11731174 (9th Cir. 1996). They properly identify the
question (which was identical to the question in this
case): whether the person who entered into the
settlement was “the person entitled to compensation”
or “the person’s representative” as required to trigger
Section

33(g)’s

forfeiture

provision.

33

U.S.C.

933(g)(1); Hale, 801 Fed. Appx. at 601- 602; Mallott,
98 F.3d at 1172. However, Respondents do not address
undisputed evidence that Clarence Simon, Jr., was
unaware of and did not consent to an agreement with
Tri-Drill.5 Based on erroneous decisions, Respondents
contend that “there is no question that petitioner was
the ‘person entitled to compensation’ and the person

5 See Petition p. 14.

13
the district court determined had entered into a
settlement with Tri-Drill.” Respondents do not
address Petitioner’s unchallenged evidence that his
counsel lacked authority to finalize a settlement on
his behalf. Therefore, no third-party settlement
“agreement” was reached by either “the person
entitled

to

compensation”

or

“the

person’s

representative.” Here, 933(g) cannot be applicable
because no release was signed, and no money ever
passed hands.
Simply stating that Petitioner’s declarations
are self-serving without quoting even one example
cannot suffice, particularly since the employer has the
burden of proof. As found by the ALJ (whose approval
would have been needed for an actual settlement), no
settlement papers existed, no money passed hands,
and no release was signed. Accordingly, 33 U.S.C.
933(g) is inapplicable. The BRB, referencing the ALJ
only in part, stated that “[t]he administrative law
judge found that claimant consented to UVL's motion
for summary judgment in exchange for $2,500, and
this did not constitute a “settlement” under
Section 33(g)(1), as the money exchanged was
for costs and was not given in consideration for

a settlement.”

6

14
(Emphasis added). Moreover, in

denying the Employer/Carrier (Longnecker)’s original
motion to dismiss, the ALJ found that “[i]n this case,
Employer has asserted that Claimant settled tort
claims with Tri-Drill for $8,000 and UV Logistics for
$2,500, but it did not submit evidence of a fullyexecuted settlement with its motion and has not
carried its burden that a fully-executed settlement
exists.” The ALJ further cited the Casey v. Georgetown
University Medical Center, 31 BRBS 147 (1997),
where the BRB found that:
Section 33(g) did not apply in a
situation involving court costs. When the
claimants did not succeed in the thirdparty suit, the district court granted
summary judgment in favor of the
defendants and then assessed court costs
of $12,000 against the claimants. The
claimants’ election to forego an appeal in
return for the defendants’ agreement to
waive their right to costs was not a
settlement under 33(g) because the
parties did not compromise the thirdparty case, the claimants did not receive
settlement proceeds, and the money
which the defendants waived was not

6 See Petition, Appendix C, p. D8.

15
settlement funds in which the employer
would be entitled to credit.7
The later decisions to erroneously apply
collateral estoppel cannot not change the fact that
there was evidence, according to the facts in the record
as found by the ALJ and not disputed, that 933(g) was
not met. There was no valid settlement between
Petitioner and Tri-Drill. Respondents actually admit
that the ALJ correctly interpreted Louisiana law. Yet
the ALJ, despite having found that no executed
settlement existed prior to the Employer/Carrier’s
motion to enforce the settlement in the district court,
flinched by applying collateral estoppel to a decision
rendered under law other that 933(g).

7 Appendix D, p. 9. See also decisions quoted in Appendix D, p.
8.

16
CONCLUSION
The petition for a writ of certiorari to the
United Stated Court of Appeals for the Fifth Circuit is
both important and meritorious and should be
granted.
Respectfully submitted,
KOERNER LAW FIRM
/s/ Louis R. Koerner, Jr.
Louis R. Koerner, Jr.
A member of the Louisiana Bar
1204 Jackson Avenue
New Orleans: 504-581-9569
Telecopier: 504-324-1798
Cellular: 504-405-1411
E-mail: koerner@koerner-law.com
URL: http:/www.koerner-law.com

D1
APPENDIX D. ADMINISTRATIVE LAW JUDGE
ORDER DENYING EMPLOYER/CARRIER’S
MOTION TO DISMISS
DATED OCTOBER 20, 2015
Clarence J. SIMON, Claimant,
v.
LONGNECKER PROPERTIES, INC., Employer
and
SEACOR MARINE, LLC,
and
SEABRIGHT INSURANCE COMPANY, Carrier
Case No.: 2015-LHC-110
OWCP No.: 07-194509
Before Clement J. Kennington, Administrative Law
Judge
On October 6, 2015, Longnecker Properties, Inc.
(Employer) and SeaBright Insurance Company
(Carrier) filed a Motion to Dismiss in the instant claim
pursuant to 29 C.F.R § 18.70(c) on the ground that
Clarence Simon (Claimant), without obtaining prior
written approval, entered into third-party settlements
in violation of Section 33(g) of the Longshore and
Harbor Workers’ Compensation Act. (“The Act’).
A. Background
Employer asserts that during the pendency of the
present claim, Claimant filed a third-party lawsuit in
the United States District Court for the Western
District of Louisiana against several parties,
including Tri-Drill, LLC, and United Vision Logistics,

D2
LLC (“UV Logistics”) seeking damages for the same
injury for which this present claim was filed. In early
October 2015, Employer apparently learned that
Claimant entered into “settlements” with Tro-Drill
and UV Logistics without its approval. (Emp. Mot.,
EX-A). Further, counsel for UV Logistics confirmed
that a settlement agreement was entered into for
$2,500 in exchange for Claimant agreeing to a consent
judgment dismissing it with prejudice in the district
court action. (Id. at 1-2; EX-A). Regarding Tri-Drill,
Employer asserts that Claimant agreed to not oppose
Tri-Drill’s Motion for Summary Judgment in
exchange for a settlement of $8,000, which was also
not approved by Employer. (Id. at 2). Further,
Employer included a recent court filing by Claimant
where he noted that “Tri-Drill, UV and plaintiff have
compromised their difference.” (Id.; Cl. Opp., EX-3, p.
3). Therefore, under Section 33(g), Claimant’s rights
to compensation and benefits must be terminated.
Employer cited a Fifth Circuit case, Nicklos Drilling
v. Cowart, 907 F.2d 1552, 1554 (5th Cir. 1990) and an
administrative law judge case, Guidry v. Total
Instrument & Electrical Servs., Inc., ALJ No. 2007LHC-1645 (Dec. 11, 2008), for support of its motion.1
On October 16, 2015, Claimant filed an
Opposition of Clarence Simon to Motion to Dismiss.

1 On October 9, 2015, Employer filed a letter with the
undersigned urging a dismissal, although the 14-day period for
Claimant to file an opposition or response had not yet passed.
See 29 C.F.R. § 18.33(d).

D3
Claimant recited his version of the events leading up
to Employer’s motion.2
Regarding an apparent settlement with UV
Logistics, Claimant’s Counsel determined that no
legitimate action existed between Claimant and UV
Logistics, and thus the parties agreed to a Rule 41(a)
dismissal under the Federal Rules of Civil Procedure,
wherein each party agreed to bear its own costs. The
parties agreed to a consent judgment, and, “without
any prompting from Claimant,” counsel for UV
Logistics sent a check to Claimant’s Counsel for costs
in recognition that he prepared the motion and
ensured that it was properly filed. (Cl. Opp., p. 2; EX2). Thus, Claimant contends that the $2,500 was for
costs and was not given in consideration for a
settlement. Counsel added that the money has since
been returned, and he is seeking to set aside the
consent judgment because of Employer’s contention
that it is also a “settlement” under Section 33. (Id. at
2).
Regarding an apparent settlement with TriDrill, Counsel acknowledged that an agreement had
been reached prior to his realization that Section 33(g)

2 Claimant’s Counsel also stated that he was retained as
counsel in 2014 to assist James MacManus, Claimant’s initial
Longshore counsel, in the personal injury action. MacManus
has since died. Also, Counsel underwent ear surgery that left
him disabled for several months, and he included a letter from
his treating physician requesting to have him excused from
court appearances for the next three to six months. (Cl. Opp.,
EX-1).

D4
applied; he stated that an LS-33 form would have been
tendered to Employer to provide notice of the
settlement. (Cl. Opp., pp. 2-3). On October 7, 2015,
Employer and Claimant had an unsuccessful
mediation, where Employer indicated that it would
not approve any third-party settlement. On October 8,
2015, Employer filed an opposition to Tri-Drill’s
Motion for Summary Judgment in the district court
action, where it stated that counsel for Tri-Drill has
changed his position that a settlement exists between
Tri-Drill and Claimant, and that it opposes the motion
in part “[b]ecause the record is currently unclear” as
to whether a settlement actually exists. (Id. at EX-3,
pp. 1-2).
B. Law and Discussion
1. Motion to dismiss
Under 29 C.F.R. § 18.70, any party may move for
disposition of the pending proceeding when consistent
with statute, regulation, or executive order. A party
may move to dismiss part or all of the matter for
reasons recognized under controlling law, such as lack
of subject matter jurisdiction, failure to state a claim
upon which relief can be granted, or untimeliness.
2. Section 33(g)
a. Generally
Section 33(g) of the Act (33 U.S.C. § 933(g))
provides a bar to claimant’s receipt of compensation
where the “person entitled to compensation” enters
into a third-party settlement for an amount less than

D5
his compensation entitlement without obtaining
employer’s prior written approval. The section is
intended to ensure that the employer’s rights are
protected in a third- party settlement and to prevent
claimant from unilaterally bargaining away funds to
which employer or its carrier might be entitled under
33 U.S.C. §933(b)-(f). I.T.O. Corp. of Baltimore v.
Sellman, 954 F.2d 239, 25 BRBS 101(CRT), vacated in
part on other grounds on reh'g, 967 F.2d 971, 26 BRBS
7(CRT) (4th Cir. 1992), cert. denied, 507 U.S. 984
(1993); Collier v. Petroleum Helicopters, Inc., 17 BRBS
80 (1985), rev'd on other grounds, 784 F.2d 644, 18
BRBS 67(CRT) (5th Cir. 1986). Failure to obtain prior
written approval, when required to do so, results in
the forfeiture of disability and medical benefits under
the Act. 33 U.S.C. §933(g)(2); Newton-Sealey v.
ArmorGroup Services (Jersey), Ltd., 49 BRBS 17
(2015); Esposito v. Sea- Land Service, Inc., 36 BRBS
10 (2002); 20 C.F.R. §702.281(b).
Interpreting the phrase “person entitled to
compensation” in Section 33(g)(1) in Estate of Cowart
v. Nicklos Drilling Co., 505 U.S. 469, 26 BRBS
49(CRT) (1992), the Supreme Court held that an
employee becomes a “person entitled to compensation”
at the moment his right to recovery vests and not
when an employer admits liability. The Supreme
Court also held that an employee is not required to get
prior written approval of third-party settlements from
the employer in two situations: (1) where the
employee obtains a judgment, rather than a
settlement, against a third party; and (2) where the

D6
employee settles for an amount greater than or equal
to the employer’s total liability under the Act.3
In Harris, 28 BRBS 254 (1994), the Board held
that in situations where multiple third- party
lawsuits have been filed, the third-party settlements
should be analyzed in the aggregate, and not
individually, in making the comparison between the
amount of the settlement and the amount of
compensation so as to correspond to employer’s
aggregate Section 33(f) credit. The Board reaffirmed
its use of the aggregate total on reconsideration in
Harris, 30 BRBS 5 (1996). Thus, in order to determine
whether the Section 33(g)(1) bar applies, the ALJ
should use the amount of the aggregate third-party
settlements entered into by the time of the formal
hearing in comparison to the amount of compensation
to which the claimant is entitled over his lifetime.
Harris, 30 BRBS at 15-16.
Section 33(g) is an affirmative defense that must
be raised and pleaded by an employer who bears the
burden of showing that the claimant entered into a: 1)
fully-executed settlement; 2) with a third person; 3)
without obtaining prior written approval from his
employer and its carrier. Newton-Sealey v.
ArmorGroup Services (Jersey), Ltd., 49 BRBS 17
(2015). Thus, the employer must first show that a
fully-executed settlement exists.
3 Under these circumstances, the claimant must give notice
under subsection (g)(2). Cowart, 505 U.S. at 482, 26 BRBS at
53(CRT).

D7
b. Existence of settlement
In determining whether settlements have been
fully executed, the Board held, in Williams v. Ingalls
Shipbuilding, Inc., 35 BRBS 92 (2001), that the ALJ
must consider, on a case-by-case basis, numerous
factors, including, inter alia, whether the claimant
agreed to a settlement; whether he signed a release;
whether the claimant’s counsel had the authority to
settle a claim on his behalf; whether any third-party
suits had been dismissed; and/or whether any
settlement had been rescinded, thereby returning the
parties to the status quo ante.
In Chavez v. Todd Shipyards Corp., 24 BRBS 71
(1990), aff'd in pert. part sub nom. Chavez v. Director,
OWCP, 961 F.2d 1409, 25 BRBS 134(CRT) (9th Cir.
1992), the Board affirmed the ALJ’s finding that no
settlement of a third-party suit occurred because
there was no acceptance, surrender, mutual consent,
or consideration present. The ALJ properly relied on
parol evidence to find that while extensive settlement
negotiations had occurred, no actual settlement or
compromise existed, and thus Section 33(g) was not
applicable. The Ninth Circuit agreed that no
settlement occurred despite the appearance of the
claimant’s name on a settlement order, and that the
ALJ did not err in relying on extrinsic evidence to
prove the non-existence of a settlement. Chavez v.
Director, OWCP, 961 F.2d 1409, 25 BRBS 134(CRT)
(9th Cir. 1992). See also Stadtmiller v. Mallott &
Peterson, 28 BRBS 304 (1994), aff'd sub nom. Mallott

D8
& Peterson v. Director, OWCP, 98 F.3d 1170, 30 BRBS
87(CRT) (9th Cir. 1996), cert. denied, 520 U.S. 1239
(1997) (although Board need not reach the issue, the
evidence showed no settlement occurred; the order
dismissing the third-party suit in light of an alleged
settlement was vacated).
In Esposito v. Sea-Land Service, Inc., 36 BRBS
10 (2002), the claimant signed a “General Release”
which released third party A.G. Ship in return for
$60,000 on August 24, 1999 and filed a stipulation of
dismissal with prejudice in the court on the same day.
Later, he tried to argue that the settlement was not
fully executed until October 4, 1999, the date he
received the settlement proceeds from the third-party
defendant; as of April 6, 2000, the date of the hearing
before the ALJ, the claimant’s attorney still had
possession of the A.G. Ship check and had not cashed
it. However, the Board held that settlement was fully
executed as of August 24, 1999.
Casey v. Georgetown University Medical Center,
31 BRBS 147 (1997), is also instructive. In Casey, the
Board affirmed the ALJ’s determination that Section
33(g) did not apply in a situation involving court costs.
When the claimants did not succeed in the third-party
suit, the district court granted summary judgment in
favor of the defendants and then assessed court costs
of $12,000 against the claimants. The claimants’
election to forego an appeal in return for the
defendants’ agreement to waive their right to costs
was not a settlement under 33(g) because the parties

D9
did not compromise the third-party case, the
claimants did not receive settlement proceeds, and the
money which the defendants waived was not
settlement funds in which the employer would be
entitled to credit.
In this case, Employer has asserted that
Claimant settled tort claims with Tri-Drill for $8,000
and UV Logistics for $2,500, but it did not submit
evidence of a fully-executed settlement with its
motion and has not carried its burden that a fullyexecuted settlement exists. Claimant demonstrated
through email correspondence that the $2,500
received from UV Logistics was for costs, and the
money was not given by UV Logistics in consideration
for a settlement. See Chavez, supra; Williams, supra;
Casey, supra4; Esposito, supra. As Claimant identified
in his opposition, Employer acknowledged through its
opposition to Tri-Drill’s summary judgment motion,
filed on October 8, 2015 in the district court action,
that counsel for Tri-Drill, its source for information on
the existence of a settlement, has since changed his
position on whether a settlement actually exists
4 The undersigned recognizes that, at this time, Casey v.
Georgetown University Medical Center, 31 BRBS 147 (1997) is
slightly distinguishable because the district court had issued
summary judgment as opposed to this matter, where Claimant
and a third-party defendant, UV Logistics, agreed to a consent
judgment because Claimant concluded he had “no good grounds
to oppose the meritorious summary judgment filed by UV.” (Cl.
Opp., pp. 1-2). However, Claimant’s Counsel stated that he is
seeking to set aside the consent judgment and will file a
statement of no opposition of UV Logistics’ summary judgment
motion. (Id. at 3).

D10
purportedly because the funds have not yet been
transferred. Employer also stated the record is
“unclear” on whether a settlement exists; it has served
subpoenas on various entities and persons to clarify
the issue. Therefore, legitimate issues of fact remain
as to whether a fully-executed settlement exists so as
to meet Employer’s first requirement for obtaining a
bar to compensation and medical benefits under
Section 33(g). Dismissal of this action at this time
would be premature.
C. Order
Accordingly, Employer’s Motion to Dismiss is
hereby DENIED.
IT IS FURTHER ORDERED that the hearing
in this matter will take place on October 29, 2015 at
9 a.m. in Covington, Louisiana as scheduled.
SO ORDERED this 20th day of October, 2015 at
Covington, Louisiana.
CLEMENT J. KENNINGTON
ADMINISTRATIVE LAW JUDGE

No. 20-1013
In the Supreme Court of the United States
_________________________
CLARENCE J. SIMON, JR.,
Petitioner,
VERSUS
DIRECTOR, OFFICE OF WORKERS’ COMPENSATION
PROGRAMS, UNITED STATES DEPARTMENT OF LABOR,
LONGNECKER PROPERTIES, INCORPORATED, AND SEABRIGHT
INSURANCE COMPANY,
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I have this day emailed a copy of the Reply Brief in support
of Application for Writ of Certiorari, Appendix, Certificate of compliance, and this
Certificate of Service to Longnecker Properties and Seabright Insurance Company
through its attorney, Henry LeBas, LeBas Law Office 2 Flagg Pl. #1, Lafayette, LA
70508 and to Elizabeth Prelogar, Acting Solicitor General of the United States, Room
5616, DEPARTMENT OF JUSTICE, 950 Pennsylvania Ave., N.W., Washington,
DC 20530-0001
Executed on June 23, 2021.

Louis R. Koerner, Jr.
KOERNER LAW FIRM
1204 Jackson Avenue
New Orleans, Louisiana 70130

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief
in Support of Petition for a Writ of Certiorari contains 2516 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 23, 2021.

Louis R. Koerner, Jr.
KOERNER LAW FIRM
1204 Jackson Avenue
New Orleans, Louisiana 70130

